           MANAGEMENT AND OVERSIGHT OF THE
                DOD WEATHER PROGRAM


Report No. D-2001-018               December 14, 2000



             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
 Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-2885

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)             Assistant Secretary of Defense (Command, Control,
                       Communications, and Intelligence)
DMSP                 Defense Meteorological Satellite Program
VSAT                 Very Small Aperture Terminal
                       Office of the Inspector General, DoD
Report No. D-2001-018                                                December 14, 2000
   (Project No. D2000LG-0102)


        Management and Oversight of the DoD Weather Program

                                Executive Summary

Introduction. This report is the first in a series on management of the DoD weather
program. Subsequent reports will discuss the DoD meteorological and oceanographic
infrastructure and the effectiveness of meteorological and oceanographic services and
support provided by the Military Departments to DoD and other governmental
agencies. For FY 2000, the DoD weather budget was approximately $475.7 million
for operations and supporting research and development.
Background. The three components of the DoD weather program are meteorology,
oceanography, and space weather. The DoD Command, Control, Communications,
Computers, Intelligence, Surveillance and Reconnaissance Architecture Framework
contributes to building interoperable and cost-effective military systems by ensuring that
the architecture descriptions developed by the DoD Components are synchronized.
The Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) (ASD[C3I]) is responsible for overseeing the development and execution of
space-related activities, to include space weather. The Chairman of the Joint Chiefs of
Staff is responsible for defining common communication standards that ensure
interoperability of meteorological, oceanographic, and space weather data transmissions
between the Military Departments. The Army Deputy Chief of Staff for Intelligence is
responsible for establishing meteorological policy covering surface and upper air
observations in direct support of Army artillery systems. The Oceanographer of the
Navy is responsible for providing oceanographic services and support to DoD and for
providing meteorological and oceanographic services and support to Navy and Marine
Corps operations. The Air Force Director of Weather is responsible for providing
space weather services and support to DoD and meteorological services and support to
Army and Air Force operations.
Objectives. The overall objective of this self-initiated series of audits was to evaluate
DoD meteorological and oceanographic services and support to determine whether the
Military Departments are providing the most cost-effective and nonduplicative
meteorological and oceanographic services and support to DoD and other governmental
agencies. Specifically, this audit focused on evaluating DoD management and oversight
of meteorological, oceanographic, and space weather services and support provided by
the Military Departments. We also evaluated the management control program as it
related to the audit objectives.
Results. An integrated DoD weather architecture using the overall DoD Command,
Control, Communications, Computers, Intelligence, Surveillance and Reconnaissance
Architecture Framework methodology was lacking. Under current DoD Directives, no
Principal Staff Assistant is responsible for overall management of the DoD weather
program. These conditions are material management control weaknesses. As a result,
DoD did not adequately coordinate satellite and communication requirements to ensure
all user requirements were met. We believe that the function relates closely to the core
ASD(C3I) responsibilities, which are focused on the production, analysis, and
dissemination of information. See Appendix A for details on our review of the
management control program.
Summary of Recommendations. We recommend ASD(C3I) oversee the development
of a DoD weather architecture; propose changes to DoD Directive 5137.1, “Assistant
Secretary of Defense for Command, Control, Communications, and Intelligence,”
February 12, 1992; serve as the proponent for the DoD weather program; and develop
specific policy that assigns roles and responsibilities for meteorological, oceanographic,
and space weather programs. We recommend the Oceanographer of the Navy and Air
Force Director of Weather evaluate the Navy requirement to obtain snow and ice data
through cloud-covered areas; evaluate sensor requirements and develop solutions that
meet user needs on current and future environmental satellites; and evaluate Air Force
high-speed, two-way weather communication systems to ensure interoperability with
Navy operations afloat. We recommend the Army Deputy Chief of Staff for
Intelligence, the Air Force Deputy Chief of Staff for Air and Space Operations, and the
Oceanographer of the Navy update existing Service guidance to require the coordination
of meteorological, oceanographic, and space weather requirements across all Military
Departments.
Management Comments. ASD(C3I) concurred with the recommendation to serve as
the proponent for the DoD weather program. However, ASD(C3I) nonconcurred with
the recommendation to develop a DoD weather architecture, stating that they are not
responsible for developing functional requirements needed to develop an operational-
level weather architecture. ASD(C3I) also nonconcurred with the recommendation to
develop policy and guidance that addresses the integration of meteorological,
oceanographic, and space weather programs within DoD to meet interoperability
requirements, stating that such policy and guidance already exists. Also, ASD(C3I)
disagreed that the lack of a cognizant DoD organization responsible for the DoD
weather program was a material management control weakness.
The Assistant Secretary of the Navy (Installation and Environment) concurred with the
recommendations to evaluate the Navy requirement to obtain sea ice and snow data
through cloud-covered areas and in adverse weather conditions and to evaluate Air
Force high-speed, two-way weather communication systems to ensure interoperability
with Navy operations afloat. However, the Assistant Secretary of the Navy
(Installation and Environment) nonconcurred with the recommendation to validate and
fund the need for the special sensor microwave imager to be a primary sensor on
current and future weather satellites, stating that modifying current requirements to
make the special sensor microwave imager a primary sensor could cause
out-of-sequence launches that ultimately lead to gaps in meteorological and




                                            ii
oceanographic satellite coverage. In addition, the Assistant Secretary of the Navy
(Installation and Environment) stated that the National Polar-Orbiting Operational
Environmental Satellite System Program Office is adequately addressing the
requirement by designating the conical microwave imager sounder as a key
performance parameter on future satellites. The Deputy Chief of Staff (Air and Space
Operations) concurred with the recommendations to evaluate the Navy requirement to
obtain sea ice and snow data through cloud-covered areas and in adverse weather
conditions and to evaluate Air Force high-speed, two-way weather communication
systems to ensure interoperability with Navy operations afloat. However, the Deputy
Chief of Staff (Air and Space Operations) nonconcurred with the recommendation to
validate and fund the need for the special sensor microwave imager to be the primary
sensor on current and future weather satellites, stating the Air Force is not responsible
for validating and funding Navy requirements for space-based weather sensing systems.
Additional unsolicited management comments were received. A discussion of
management comments is in the Finding section of the report and the complete text is in
the Management Comments section.
Audit Response. ASD(C3I) comments are generally responsive; however, a few issues
remain unresolved. ASD(C3I) acknowledged oversight responsibility for a DoD
weather architecture, but not for developing operational-level architectures. As a
result, we revised the recommendation and request that ASD(C3I) provide additional
comments on it. Although ASD(C3I) identified general guidance addressing integration
and interoperability of information technology systems, the guidance does not assign
specific roles and responsibilities for meteorological, oceanographic, and space weather
systems. We request that ASD(C3I) provide additional comments to the final report on
whether specific guidance assigning roles and responsibilities for meteorological,
oceanographic, and space weather programs will be developed. In addition, we request
that ASD(C3I) reconsider their position on the materiality of the management control
weakness identified in this report, taking into consideration the definitions of materiality
prescribed for the DoD Management Control Program.
We added a recommendation to the Army Deputy Chief of Staff for Intelligence, the
Air Force Deputy Chief of Staff for Air and Space Operations, and the Oceanographer
of the Navy to update existing Service guidance to require the coordination of
meteorological, oceanographic, and space weather requirements across all Military
Departments. We request the Army Deputy Chief of Staff for Intelligence, the Air
Force Deputy Chief of Staff for Air and Space Operations, and the Oceanographer of
the Navy provide additional comments to the final report as to whether existing
meteorological, oceanographic, and space weather guidance will be updated.
We request management provide comments to the final report by February 12, 2001.




                                            iii
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                           1
     Objectives                                                           4

Finding
     Weather Services and Support                                         5

Appendixes
     A. Audit Process
          Scope                                                          20
          Methodology                                                    21
          Management Control Program Review                              22
          Prior Coverage                                                 23
     B. Report Distribution                                              24

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
         and Intelligence)                                               27
     Department of the Army                                              42
     Department of the Navy                                              48
     Department of the Air Force                                         55
     Joint Staff                                                         75
Background
    Weather refers to the entire range of environmental events extending from the
    bottom of the ocean to space.1 The three components of the DoD weather
    program are meteorology, oceanography, and space weather. Meteorology is
    the study of the affects of atmospheric events and of the atmosphere on the
    Earth’s oceans and surface, to include weather forecasting. Oceanography is the
    study of the influences on surface and underwater operations caused by the
    ocean’s chemistry, geophysics, and physical characteristics (to include salinity
    and temperature). Space weather is the study of the region beginning at the
    lower boundary of the Earth’s ionosphere (approximately 50 kilometers) and
    extending outward. Specifically, space weather incorporates disturbances in the
    ionosphere which interfere with spacecraft and ground-based communications,
    solar flares and their effects on defense systems, and changes in atmospheric
    density which impact accurate predictions of satellite and space debris from
    orbit. For FY 2000, the DoD weather budget2 was approximately
    $475.7 million for operations and supporting research and development.

    Office of the Secretary of Defense Responsibilities. DoD Directive 5137.1,
    “Assistant Secretary of Defense for Command, Control, Communications, and
    Intelligence,” February 12, 1992, assigns responsibility for establishing policy
    and providing direction to DoD Components on matters related to command,
    control, communications, and intelligence-related space systems. DoD
    Directive 3100.10, “Space Policy,” July 9, 1999, establishes policy and assigns
    roles and responsibilities for space-related activities3 within DoD. DoD
    Directive 3100.10 states that ASD(C3I) is responsible for overseeing the
    development and execution of space-related architectures, acquisition, and
    technology programs. Space-related activities include all aspects of a
    comprehensive command, control, communications, intelligence, surveillance,
    and reconnaissance architecture that integrates airborne, land, sea, and space
    assets. Further, DoD Directive 3100.10 requires a national security space
    architecture that includes communications, ground, and space segments to
    enhance support to military operations and other national security objectives.

    Joint Chiefs of Staff Responsibilities and Doctrine. Chairman of the Joint
    Chiefs of Staff Instruction 3810.01A, “Meteorological and Oceanographic
    Operations,” February 25, 1998, states that the Chairman of the Joint Chiefs of
    Staff is responsible for defining common communication standards that ensure
    interoperability of meteorological, oceanographic, and space weather data
    transmissions between Military Departments. The Army Chief of Staff is

    1
     Although Joint Publication 3-59, “Joint Doctrine, Tactics, Techniques, and Procedures for
    Meteorological and Oceanographic Operations,” March 23, 1999, uses the terms meteorology
    and oceanography [METOC], throughout this report the term weather is used to define the entire
    range of environmental events extending from the bottom of the ocean to space.
    2
    Source: Office of the Federal Coordinator for Meteorology, “The Federal Plan for
    Meteorological Services and Supporting Research,” June 2000.
    3
     Officials from the Office of the Assistant Secretary of Defense for Command, Control,
    Communications, and Intelligence stated that space-related activities include space weather and
    space-based environmental monitoring.



                                               1
responsible for surface and upper air observations in direct support of Army
artillery systems and forward units not supported by the Air Force. The Chief
of Naval Operations is responsible for providing oceanographic services and
support to DoD and for providing meteorological and oceanographic services
and support to Navy and Marine Corps operations. The Air Force Chief of
Staff is responsible for providing space weather services and support to DoD
and meteorological support to Army and Air Force operations.

Joint Publication 3-59, “Joint Doctrine, Tactics, Techniques, and Procedures for
Meteorological and Oceanographic Operations,” March 23, 1999, establishes
joint doctrine and procedures for planning and executing meteorological,
oceanographic, and space weather services and support throughout a range of
military operations. Joint Publication 3-59 states that Military Departments
must maintain a state of immediate responsiveness to joint operations by:

         •   maintaining communication equipment interoperability,4

         •   planning and maintaining standardized and interoperable equipment,
             and

         •   identifying training techniques that allow for a seamless transition to
             joint operations.

Also, Joint Publication 3-59 supports a “one theater, one forecast” concept and
identifies meteorological, oceanographic, and space weather services and
support as a principal readiness issue.

Military Department Responsibilities. The Military Departments provide a
variety of weather services and support including:

         •   daily forecasts for meteorological, oceanographic, and space weather
             for operations;

         •   briefings for aviation, land operations, and oceanographic missions;
         •   predictions of severe weather;

         •   input to sensor and weapon systems;

         •   data for warfighting decision-making tools;

         •   computations for ballistic missile system and special mission support;
             and

         •   collection and dissemination of environmental data.

4
 DoD Directive 4630.5, “Compatibility, Interoperability, and Integration of Command, Control,
Communications, and Intelligence Systems,” November 12, 1992, defines interoperability as the
ability of systems, units, or forces to provide services to and accept services from other systems,
units, or forces, and to use the services so exchanged to enable them to operate effectively
together. Interoperability is achieved between systems when information or services are
exchanged directly and satisfactorily between the system and users.



                                            2
Public Law 253, “National Security Act of 1947,” chapter 343, July 26, 1947,
assigns the Air Force responsibility for providing meteorological services to the
Army. The Army is responsible for providing meteorological ballistics data.
The Navy and Air Force are the primary providers of meteorological,
oceanographic, and space weather to DoD and U.S. national programs. In
addition, the Navy and Air Force also provide meteorological, oceanographic,
and space weather to other governmental agencies and international partners.

        Army. The Army Chief of Staff, specifically, the Deputy Chief of Staff
for Intelligence, is responsible for establishing meteorological support policy.
The Deputy Chief of Staff for Operations and Plans is responsible for
determining meteorological support for artillery units and providing upper air
observations to forward units not supported by the Air Force. Also, the Deputy
Chief of Staff for Operations and Plans is responsible for identifying and
approving meteorological requirements related to data collection and
forecasting; however, the Air Force Director of Weather determines how those
requirements can best be met. Pursuant to the implementation of the National
Security Act of 1947, inter-Service agreements require the Air Force to provide
personnel and resources to meet most of the Army’s weather information needs.
The Army is required to provide meteorological support equipment while the
Air Force is responsible for providing meteorological communication support,
observations, and forecasting ability.

        Navy. The Chief of Naval Operations, specifically, the Oceanographer
of the Navy, is the resource and program sponsor for Navy weather activities.
The Navy weather program consists of five closely related disciplines:
astrometry, hydrography, meteorology, oceanography, and precise-time. 5 Chief
of Naval Operations Instruction 3140.54A, “Submission of Meteorological and
Oceanographic, Astrometry, and Precise-Time and Time Interval
Requirements,” November 5, 1993, requires the Oceanographer of the Navy to
screen and review astrometry, geospacial information and services,
meteorology, oceanography, and precise-time requirements. The ocean and
atmosphere affects all aspects of Naval warfare. Accurate sonar prediction in
the coastal areas of the world are not possible without knowledge of depth and
bottom type; changes in depth, ocean temperature, and salinity; or the weather
conditions at and above the sea surface. Similarly, accurate missile and aircraft
detection ranges cannot be adequately determined without knowledge of sea
surface temperature and winds, knowledge of nearby topography, and the
temperature and moisture profile of the atmosphere. The Naval meteorological
and oceanographic community is a forward-deployed force that operates in
similar environments during peacetime and wartime.

The Oceanographer of the Navy is the resource sponsor for the Marine Corps;
however, the Marine Corps is responsible for observing, collecting, and
analyzing meteorological data to provide forecasts that support operations at
fixed shore sites and forward operating bases worldwide. The Marine Corps
uses Navy and Air Force analytical data, models, and model output to perform


5
 Precise-time supports DoD requirements for electronic communication, navigation, and weapon
systems.



                                         3
     meteorological and oceanographic analysis and forecasting. The Navy is
     responsible for budgeting, planning, and programming Marine Corps satellite
     and communication requirements.

              Air Force. The Air Force Chief of Staff, specifically, the Director of
     Weather, is responsible for Air Force weather resources and operations. In
     addition, the Director of Weather is responsible for coordinating with the Army
     operational meteorological support policies related to, or potentially impacting,
     the Army. The Air Force provides meteorological and space weather services
     and support for Army and Air Force operations. The Air Force provides
     information, products, and services that support air, land, and space operations.
     The Air Force observes, analyzes, forecasts, and disseminates climatological,
     meteorological, and space weather information. The Air Force Space
     Command is the lead Service Component for managing and supporting the
     Defense Meteorological Satellite Program (DMSP). The DMSP constellation of
     satellites is a group of DoD-owned operational weather satellites that provides
     the primary source of meteorological, oceanographic, and space weather data to
     DoD users worldwide. DMSP satellites collect, store, and communicate data
     used to develop various meteorological, oceanographic, and space weather
     products to fixed and tactical ground stations. The Air Force Weather Agency
     provides DMSP satellite data and meteorological information to DoD, national
     programs, and other governmental agencies and international partners. The Air
     Force meteorological community is a forward-deployed force that is able to rely
     on operational weather squadrons for support.


Objectives
     This report is one in a series that evaluates management of the DoD weather
     program. Subsequent reports will discuss the DoD meteorological and
     oceanographic infrastructure and effectiveness of meteorological and
     oceanographic services and support provided by the Military Departments to
     themselves and other governmental agencies.
     The overall objective of this self-initiated series of audits was to evaluate DoD
     meteorological and oceanographic services and support to determine whether the
     Military Departments are providing the most cost-effective and nonduplicative
     meteorological and oceanographic services and support to DoD and other
     governmental agencies. Specifically, this audit focused on evaluating DoD
     management and oversight of meteorological, oceanographic, and space weather
     services and support provided by the Military Departments. We also evaluated
     the management control program as it related to identifying, coordinating,
     validating, and revalidating meteorological, oceanographic, and space weather
     satellite and communication requirements. See Appendix A for a discussion of
     the audit scope and methodology, management control program, and prior
     coverage.




                                         4
            Weather Services and Support
            An integrated DoD weather program using the overall “DoD Command,
            Control, Communications, Computers, Intelligence, Surveillance and
            Reconnaissance Architecture Framework,” version 2.0, December 18,
            1997 (DoD Architecture Framework) methodology was lacking.
            Although DoD Directive 5137.1 assigns ASD(C3I) responsibility for
            command, control, communications, and intelligence-related space
            systems, no Directive assigns responsibility for coordination and
            oversight of meteorological and oceanographic services and support to
            any Office of the Secretary of Defense Principal Staff Assistant. In
            addition, DoD did not develop specific policy and guidance that assigns
            roles and responsibilities for meteorological, oceanographic, and space
            weather programs to meet interoperability and mission requirements6
            effectively and efficiently. Also, the Military Departments’ guidance for
            identifying, coordinating, and validating meteorological, oceanographic,
            and space weather service and support requirements did not require
            coordination across all Military Departments. As a result, DoD did not
            always coordinate satellite and communication requirements to ensure all
            user requirements were met.


DoD Weather Architecture
    An integrated DoD weather program was not implemented using the overall
    DoD Architecture Framework methodology.

    Post-Desert Storm Studies. Operation Desert Storm identified a lack of
    interoperable meteorological, oceanographic, and space weather
    communications capabilities. The Joint Staff tasked the Defense Information
    Systems Agency and the Services to identify requirements for the interoperable
    flow of meteorological, oceanographic, and space weather information in
    support of joint operations, make recommendations, and initiate actions to
    improve interoperability of weather support during joint operations.

            May 1993 Study. “The Joint Meteorological and Oceanographic
    Interoperability Team’s Process Modeling Findings and Recommendations on
    Joint Interoperability of Meteorological and Oceanographic Support to Joint
    Operations,” May 25, 1993, identified the existing meteorological,
    oceanographic, and space weather architecture did not meet the needs of the
    warfighter because the communication systems were Service-unique and not
    interoperable, the meteorological, oceanographic, and space weather forces
    were not trained as they actually fought, and meteorological, oceanographic,
    and space weather information was not usable among all Services.




    6
     To include satellite and communications, data collection, forecasting models, and equipment
    acquisition.



                                              5
       May 1995 Study. “Joint Meteorological and Oceanographic
Interoperability Team Functional Process Improvement AS-IS Modeling Report
on Joint Meteorological and Oceanographic Operations,” May 1995, evaluated
meteorological, oceanographic, and space weather processes, information
requirements, and resources necessary to aid in the development of an
interoperable communications architecture. The May 1995 study also identified
that DoD needs to fully integrate a long-term joint meteorological,
oceanographic, and space weather communications architecture with the DoD
communications architecture.

       July 1995 Study. “The Joint Meteorological and Oceanographic
Interoperability Team Functional Process Improvement TO-BE Modeling Report
on Joint Meteorological and Oceanographic Operations,” July 1995, identified
meteorological, oceanographic, and space weather information flow
requirements necessary for the communications community to develop a
communications architecture that adequately met the Services’ requirements.
The purpose of the architecture was to support joint operations during the
2005-2010 timeframe. In addition, the July 1995 study concluded that a lead
Service was necessary for the overall transition to interoperable information
systems and an interoperable communications architecture.

The post-Operation Desert Storm studies identified that timely and reliable
communications, in addition to interoperable meteorological, oceanographic,
and space weather information systems, are critical to every facet of military
operations. As a result of the post-Operation Desert Storm studies, the Defense
Information Systems Agency initiated a communications architecture and the
Services initiated joint weather architecture to improve interoperability during
operations. However, as of November 2000, these architectures had not been
completed.

DoD Architecture Framework. Public Law 103-62, “The Government
Performance and Results Act of 1993,” section 306, and the Clinger-Cohen Act
of 1996, Public Law 104-106, section 5113 (40 U.S.C. 1413) codify the
efficiency, interoperability, and leveraging goals pursued by the Military
Departments, Unified Commands, and other DoD Components. In
October 1995, the Deputy Secretary of Defense directed a DoD-wide effort to
define and develop a better means and process for ensuring that command,
control, communications, computers, and intelligence capabilities meet
warfighter requirements. ASD(C3I) established the Command, Control,
Communications, Computers, Intelligence, Surveillance and Reconnaissance
Architecture Working Group to develop the DoD Architecture Framework. The
DoD Architecture Framework is intended to ensure that architecture
descriptions developed by the Military Departments, Unified Commands, and
other DoD Components are interrelated between and among each organization.

The DoD Architecture Framework consists of three perspectives: operational,
system, and technical architecture views. An operational architecture view
describes the activities and tasks, operational elements, and information flows
required to accomplish and support a military operation. A system architecture
view describes systems and interconnections providing for, or supporting,
warfighting functions. A technical architecture view is the minimal set of rules
governing the arrangement, interaction, and interdependence of system parts or


                                    6
    elements, whose purpose is to ensure that a system satisfies a specified set of
    requirements. An architecture framework contributes to building interoperable
    and cost-effective military systems.

    Management of the DoD Architecture Framework. In January 1997, the
    DoD Architecture Coordination Council7 was established to ensure the
    interoperability and cost effectiveness of military systems by establishing
    comprehensive DoD architecture guidance. The DoD Architecture Framework
    implements the methodology for developing and reviewing architectures. In a
    March 31, 2000, Deputy Secretary of Defense memorandum, “DoD Chief
    Information Officer Executive Board,” the DoD Architecture Coordination
    Council was designated as the senior council for oversight of all DoD
    architectures. As of November 2000, based on the architectures initiated by the
    Defense Information Systems Agency and the Services, the Services were in the
    process of developing a joint meteorological, oceanographic, and space weather
    architecture that promotes interoperability. However, an integrated DoD
    weather program architecture did not exist because DoD did not have a
    proponent or advocate for integrating meteorology, oceanography, and space
    weather.


Weather Program Management and Oversight
    Although DoD Directive 5137.1 assigns the responsibility for command,
    control, communications, and intelligence-related space systems to ASD(C3I),
    no Directive assigns responsibility for coordination and oversight of
    meteorological and oceanographic services and support to any Office of the
    Secretary of Defense Principal Staff Assistant. In addition, DoD did not
    develop overall policy and guidance that addresses the integration of
    meteorological, oceanographic, and space weather programs to meet
    interoperability and mission requirements effectively and efficiently. Also, the
    Military Departments’ guidance for identifying, coordinating, and validating
    meteorological, oceanographic, and space weather services and support did not
    require coordination across all Military Departments.

    Past Initiatives. On April 3, 1992, the Joint Staff tasked the Military
    Departments and the Defense Information Systems Agency to form a joint
    working group to improve interoperability of military weather services and
    support for joint operations. The Joint Interoperability of Military Weather
    Support Working Group identified shortfalls in joint weather planning during
    Operation Desert Storm. The Joint Interoperability of Military Weather Support
    Working Group identified 11 interoperability problem areas. As a result, on
    January 13, 1993, the Oceanographer of the Navy and the Air Force Director of
    Weather signed a memorandum of agreement, “Navy-Air Force Cooperation
    Implementation Action Memorandum,” to evaluate potential areas of
    7
     The DoD Architecture Coordination Council, which comprises many organizations within DoD
    and is cochaired by the Under Secretary of Defense for Acquisition, Technology, and Logistics;
    ASD (C3I); and the Director, Joint Chiefs of Staff for Command, Control, Communications, and
    Computer Systems, is the senior council for oversight of the DoD Command, Control,
    Communications, Computers, Intelligence, Surveillance and Reconnaissance Architecture
    Framework.



                                              7
cooperation between the Navy and Air Force for weather services and support.
The Navy-Air Force agreement provides a framework for a long-term
cooperative effort with the goal of identifying ways in which the Navy and Air
Force can provide weather support with greater efficiency and address weather
interoperability issues.

The Navy-Air Force agreement identifies 19 initiatives, to include standardizing
weather databases and algorithms, expanding communication capacity using a
shared processing network, and standardizing Military Department dial-in access
capability to improve interoperability of weather support services. Of the
19 initiatives, 16 were accepted for implementation, 2 were rejected, and 1 was
returned for further investigation. As of November 2000, only 5 of the
16 accepted initiatives were complete. Initiatives remaining open include the
implementation of joint theater forecast consistency (one theater, one forecast),
consolidation of computer flight planning requirements, increased coordination
of research and development, and reduction of duplicate base aviation weather
support at operational facilities. Without a cognizant organization and
implementing policy and guidance to provide management and oversight for
DoD weather, increasing interoperability of weather services and support
between the Navy and Air Force, reducing duplicative weather services and
support, and providing effective and efficient weather services and support is
limited.

DoD Policy and Guidance. ASD(C3I) has management and oversight
responsibilities for space-related activities to include space weather; however,
neither that official nor any other Principal Staff Assistant had overall
management and oversight responsibilities for meteorology and oceanography.
As a result, DoD did not develop specific policy and guidance that assigns roles
and responsibilities for meteorological, oceanographic, and space weather
programs to meet interoperability and mission requirements effectively and
efficiently.

        Management and Oversight of the DoD Space Program. DoD
Directive 5137.1 assigns ASD(C3I) responsibility for command, control,
communications, and intelligence-related space systems and DoD
Directive 3100.10 assigns ASD(C3I) responsibility for oversight and
management of the DoD space program to include space weather. In
March 1999, the National Security Space Senior Steering Group approved a
Space Weather Architecture Study. As a result, in June 2000, the National
Security Space Senior Steering Group approved a transition plan to implement
the study’s recommendations. As of November 2000, the Office of ASD(C3I)
was in the process of developing a National Security Space Architecture8 that
includes DoD space weather. However, the development of that architecture
was not coordinated with the DoD Architecture Coordination Council.

      Management and Oversight of the DoD Meteorological and
Oceanographic Program. DoD policy that assigned responsibility for
managing and overseeing meteorological and oceanographic services and
8
The National Security Space Architecture was developed with interagency assistance from
DoD, the National Aeronautics and Space Administration, the National Oceanic and
Atmospheric Administration, and other U.S. Government agencies.



                                         8
support provided by the Military Departments did not exist. We interviewed
officials from the Office of ASD(C3I) and the Office of the Director, Defense
Research and Engineering, to determine which office within DoD had
responsibility for meteorological and oceanographic services and support.
Officials from the Office of ASD(C3I) stated that, although DoD
Directive 3100.10 requires their office to provide management and oversight of
space-related matters, meteorological and oceanographic services and support
were not addressed. Officials from the Office of the Director, Defense
Research and Engineering, stated that their only responsibility related to DoD
weather was meteorological, oceanographic, and space environment research.
Neither office was able to identify a cognizant organization responsible for
overall management of meteorological and oceanographic services and support
within DoD. We believe that this function relates closely to the core
responsibilities of the ASD(C3I), which are focused on the production, analysis,
and dissemination of information.

Military Department Policy and Guidance. Although the Military
Departments have developed policy and guidance for identifying, coordinating,
and validating meteorological, oceanographic, and space weather requirements,
that guidance does not require the coordination of meteorological,
oceanographic, and space weather requirements across all Military Departments
to support interoperability and avoid duplication of weather services and
support.

        Meteorological Services and Support. Chief of Naval Operations
Instruction 5450.165D, “Mission and Function of Commander, Naval
Meteorology and Oceanography Command,” August 8, 1995, requires the Navy
to provide meteorological services and support to DoD and joint operations. In
addition, Air Force Policy Directive 15-1, “Atmospheric and Space
Environmental Support,” October 13, 1993, requires the Air Force to provide
accurate and timely atmospheric forecasts that support DoD missions. DoD and
joint commanders use real-time, global meteorological services and support
provided by the Navy and Air Force to enhance the warfighter effectiveness.
Air Force Joint Instruction 15-157, “Weather Support for the U.S. Army,”
July 31, 1996 (also referred to as Army Regulation 115-10), assigns
responsibilities and establishes procedures for the Air Force to integrate the
Army meteorological mission into the Air Force overall weather mission. Air
Force Joint Instruction 15-157 also establishes procedures for identifying,
coordinating, and validating Army and Air Force meteorological requirements at
the Major Command levels.

        Oceanographic Services and Support. Secretary of the Navy
Instruction 5430.79B, “Naval Oceanography Policy, Relationships, and
Responsibilities,” July 14, 1986, requires the Navy to provide oceanographic
information9 for DoD missions. Real-time, tailored oceanographic information
is used by joint and Naval Expeditionary and Special Operations Forces to
perform global ocean front and sea-surface temperature analysis. In addition,


9
 Oceanographic information includes knowledge of the atmosphere, the oceans, the ocean floors,
and the coastal and seabed areas.



                                          9
    Chief of Naval Operations Instruction 3140.54A establishes procedures for
    identifying, coordinating, and validating requirements for new or modified
    meteorological and oceanographic equipment within the Navy.

            Space Weather Services and Support. DoD Directive 3100.10
    requires ASD(C3I) to provide operational space force capabilities necessary to
    conduct space support and integrate mission areas into an operational space
    force structure that is interoperable and meets the needs of Unified
    Commanders, intelligence users, and the Military Departments. Air Force
    Policy Directive 15-1 requires the Air Force to provide uninterrupted space
    weather advisories, observations, and warnings to support DoD missions. The
    Air Force Space Command provides space observations and forecasts that
    support ballistic missile warnings, communications, intelligence, navigation, and
    weather for U.S. Space Command and the North American Aerospace Defense
    Command operational plans and missions. Air Force Joint Instruction 15-157
    also establishes procedures for identifying, coordinating, and validating Army
    and Air Force space weather requirements at the Major Command level.

    Each of the Military Departments has developed policy and guidance for
    identifying, coordinating, and validating meteorological, oceanographic, and
    space weather services and support within their respective organization.
    However, the guidance does not require the coordination of meteorological,
    oceanographic, and space weather requirements across all Military Departments
    to support interoperability and avoid duplication of weather services. A
    cognizant and accountable Principal Staff Assistant to the Secretary of Defense
    is necessary to provide overall guidance to avoid duplication and ensure weather
    services are executed in an efficient manner.


Meeting Weather Support Requirements
    The Military Departments did not always coordinate satellite and communication
    requirements to ensure DoD user requirements were met. The Air Force did
    not have satellite support to meet Navy requirements for snow and ice data
    through cloud-covered areas and in adverse weather conditions. The Navy and
    Air Force did not adequately coordinate the need for the special sensor
    microwave imager10 to be a primary sensor on DMSP satellites. The Air Force
    weather communication equipment was not interoperable with Navy operations
    afloat.

    Kosovo After-Action Report. The Joint Chiefs of Staff issued a report to
    Congress, “The Kosovo/Operation Allied Force After-Action Report” (the
    report), January 31, 2000, that evaluated the effects of weather on intelligence,
    surveillance, reconnaissance, and air attack operations during Operation Allied
    Force.11 The report states that air operations during Operation Allied Force

    10
     The special sensor microwave imager is a passive microwave radiometer used to detect cloud
    water, ice edges, rain rates, and sea surface wind speeds.
    11
     Operation Allied Force began on March 24, 1999, when U.S. military forces, acting with our
    North American Treaty Organization allies, commenced air strikes against the Former Republic
    of Yugoslavia to bring an end to Serbian atrocities in Kosovo.



                                            10
were hampered by poor weather conditions that allowed unimpeded air strikes
only 24 of 78 days. In addition, adverse weather perpetuated the condition by
limiting the ability of the Allied Force to find and identify targets more than
70 percent of the time because at least 50 percent of the sky was obscured by
cloud cover. The allied forces experienced unfavorable weather conditions that
increased the risk for aircrews and aircraft and complicated the ability to
effectively collect collateral damage and target information. The report stresses
the importance of having accurate and timely weather forecasting capabilities,
and using those capabilities to enhance weather forecasts.

The report also emphasizes a need for an all-weather, high-fidelity sensor
capable of cloud penetration to enable search capabilities for target detection and
tracking. Although the Air Force provided meteorological support during
Operation Allied Force, the Air Force meteorological team did not consider
cloud penetration a viable weather support requirement. As a result, cloud
penetration technology used by the Navy was not used for operational planning
and execution purposes during Operation Allied Force.

Weather Satellite Support. The Air Force did not have satellite support to
meet Navy requirements for snow and ice data through cloud-covered areas and
in adverse weather conditions. The Navy identified the need for high-resolution
sea-ice and snow data in a “Memorandum Joint Chiefs of Staff 154-86,”
August 1, 1986, that addresses all defense environmental satellite requirements.
High-resolution sea ice data is critical to determine ice depth and thickness for
surface and subsurface operations in the Antarctic, Arctic, and northern Atlantic
and Pacific Oceans. In addition, high-resolution snow data is necessary for
determining the difference between cloud-covered and snow-covered areas. The
Navy submitted the requirement for high-resolution sea ice and snow data to the
Air Force Space Command for inclusion in the DMSP system operational
requirements document. Although DMSP sensors are capable of obtaining sea
ice and snow data, the data did not meet the parameters established by the Navy.
Therefore, DMSP satellites did not meet Navy needs for high-resolution sea ice
and snow data because the sensors were unable to penetrate cloud-covered
areas. In 1995, the National Aeronautics and Space Administration, the
National Oceanic and Atmospheric Administration, and the Canadian Space
Agency signed an International Memorandum of Agreement that allowed the
National Ice Center, in Suitland, Maryland, to receive high-resolution sea ice
data needed to meet its requirements.

The 1995 International Memorandum of Agreement allowed the National Ice
Center to receive synthetic aperture radar data from a Canadian government
satellite for approximately $500,000 a year. The satellite, Radar Satellite-1, is
equipped with a powerful microwave instrument that receives and transmits a
signal to “see” through clouds, darkness, haze, and smoke. The synthetic
aperture radar technology enabled the Navy to meet ongoing global, regional,
and tactical scale operations. Synthetic aperture radar is used by commanders
because it is able to obtain high-resolution images in all weather conditions.
Synthetic aperture radar also enhanced Navy ability to detect sea ice motion and
surface features more clearly.




                                    11
DoD, the National Aeronautics and Space Administration, and the National
Oceanic and Atmospheric Administration provided a booster to the Canadian
Space Agency to launch Radar Satellite-1 in November 1995. As a result, the
Canadian government provided synthetic aperture radar to DoD at a reduced
cost. However, the Canadian satellite is scheduled to reach its life expectancy
in November 2000.12 Although the Canadian Space Agency has a replacement
satellite, Radar Satellite-2, they do not have the capability or resources to launch
the satellite. Therefore, the Canadian Space Agency contracted an U.S.
commercial company to launch Radar Satellite-2. If Canada launches Radar
Satellite-2 without U.S. Government support, the cost of synthetic aperture
radar data will increase from approximately $500,000 to approximately
$16 million annually. As of November 2000, the Navy and Air Force had not
determined an alternative solution to meet the Navy’s high-resolution need for
sea ice and snow data.

Satellite Requirement Coordination. The Navy and Air Force did not
adequately coordinate the need for the special sensor microwave imager to be a
primary sensor on DMSP satellites. The “DMSP System Operational
Requirements Document,” December 26, 1990, identifies the operational
linescan system13 as the only primary sensor on DMSP satellites and the special
sensor microwave imager as a secondary sensor rather than a primary sensor.
Therefore, replacement DMSP satellites are launched when the operational
linescan system fails, not when the special sensor microwave imager fails.

The special sensor microwave imager is critical for Army operations in
determining surface soil moisture content and to the Fleet Numerical
Meteorology and Oceanography Center14 for running the Navy Operational
Global Atmospheric Prediction System.15 In 1993, the Navy Operational Global
Atmospheric Prediction System became the single DoD global numerical
weather prediction model and as a result, the special sensor microwave imager
became a critical mission sensor for DoD modeling and weather operations.
Officials from the Navy stated they had requested an update to the DMSP
System Operational Requirements Document to include the special sensor
microwave imager as a primary sensor. Although officials from the Air Force
confirmed that the Navy made the request, neither the Navy or Air Force were
able to provide documentation that supports a request to update the DMSP
System Operational Requirements Document had been made. Officials from the
Air Force also stated that the Navy was given the opportunity to fund the
requirement to make the special sensor microwave imager equivalent to the
12
 Generally, the life expectancy of a satellite is 5 years; however, the status of the satellite is
continuously monitored and the life expectancy updated. As of November 2000, the National
Aeronautics and Space Administration, the National Oceanic and Atmospheric Administration,
and the Canadian Space Agency signed an extension to the 1995 International Memorandum of
Agreement based on life expectancy updates that continues the agreement for 5 years, the life of
Radar Satellite-1, or until the launch of Radar Satellite-2, whichever occurs first.
13
  The operational linescan system is a two-channel radiometer that is used for visible and
infrared cloud cover detection and produces fine and smoothed data imagery.
14
 The Fleet Numerical Meteorology and Oceanography Center is designated the official global
model producer for DoD.
15
  The Navy Operational Global Prediction System is the back-up global forecasting model for
the National Weather Service and the only DoD global model.



                                           12
operational linescan system for determining the need to launch replacement
DMSP satellites when the primary sensor fails. However, officials from the
Navy stated they were unaware of an Air Force request to provide additional
funding. As a result, the Navy did not program additional funds to support
elevating the special sensor microwave imager from a secondary sensor to a
primary sensor.

Products produced by the operational linescan system and the special sensor
microwave imager are critical to the warfighter. Therefore, not identifying and
funding the special sensor microwave imager as a primary sensor could
potentially impact the ability of the Navy to perform its mission. In addition,
the Navy Operational Global Atmospheric Prediction System could significantly
degrade its mission capability if a special sensor microwave imager failed.

Weather Communication Support. The Air Force weather communication
equipment was not interoperable with Navy operations afloat. Based on
shortfalls identified in an Air Force study, “XENA – Air Force Weather
Communication Vision” (XENA study), September 30, 1996, the Air Force
migrated from using terrestrial-based communication lines as their primary
method of communication to using satellite and terrestrial-based
communications. The XENA study identifies the need for a worldwide,
high-speed, two-way communication system to support cost-effective data
transmissions because meteorological and oceanographic data is highly
perishable. In addition, the XENA study provides a comprehensive and detailed
description of existing weather systems, establishes a baseline for a detailed
communications architecture, and identifies communication shortcomings.

During calendar years 1996 through 1998, the Defense Information Systems
Agency was unable to meet the Air Force need for a high-speed, two-way
communication system. As a result, the Defense Information Systems Agency
granted a waiver16 in May 1998 for the Air Force to sign a lease with Hughes
Corporation for use of a very small aperture terminal (VSAT). VSAT allows
the warfighter to receive high-speed, high-resolution weather data. VSAT is a
commercial two-way communication system designed to improve weather
support to the warfighter when deployed or in garrison by providing weather
data to operational weather systems. The weather data allows forecasters to
integrate strategic, center-developed, ground-based and space-based
observational data with centrally produced forecast products to generate
tailored, mission-specific weather support to DoD.

VSAT is a viable solution to Army and Air Force needs for an in-garrison
high-speed, common-user communication system; it is not practical for Navy
operations afloat. In February 1995, the Navy conducted tests aboard the
USS LaSalle17 to determine whether the Navy could use VSAT afloat and
16
  Officials from the Air Force Weather Agency stated that in November 2000, the Defense
Information Systems Agency began the transition process of using Hughes Global Services to
provide satellite communication support. However, the Air Force has continued to use the same
VSAT equipment and services.
17
 The USS LaSalle is one of two command ships that provides accommodations and
communications for fleet commanders. The USS LaSalle serves as the flagship for the
Commander, Sixth Fleet.



                                         13
    ashore. The Navy tested VSAT because of the need for a more efficient mode
    of data exchange with their regional meteorology and oceanography centers and
    to establish interoperability with the Army and Air Force. The tests revealed
    that VSAT was not a viable communication system afloat because the
    communication path was interrupted when the ship shifted only a few tenths of a
    degree, resulting in erroneous and incomplete data. Officials from the Combat
    Air Force Command and Control System Program Office stated that VSAT was
    designed to provide information to fixed locations. Separate, Service-unique
    weather communication systems do not promote interoperability, therefore, the
    potential exists for degraded meteorological, oceanographic, and space weather
    support to the warfighter.


Future Requirements
    The United States operates unique civil and military polar-orbiting
    environmental satellite systems that collect, process, and distribute remotely
    sensed meteorological, oceanographic, and space weather data. In May 1995,
    DoD, the National Aeronautics and Space Administration, and the National
    Oceanic and Atmospheric Administration began to consolidate18 separate civilian
    and military polar-orbiting environmental satellite systems into a single
    constellation: the National Polar-Orbiting Operational Environmental Satellite
    System. The Federal agencies have developed a plan for identifying,
    documenting, and validating initial requirements for the new satellites. The goal
    of the convergence program is to reduce the cost of acquiring and operating
    polar-orbiting operational environmental satellites while continuing to satisfy
    U.S. operational civil and national security requirements. The creation of the
    National Polar-Orbiting Operational Environmental Satellite System requires a
    cognizant DoD organization to provide guidance, policy, and oversight for DoD
    meteorological, oceanographic, and space weather programs to ensure that DoD
    requirements are met in the national satellite system.


Management Comments on the Finding
    Joint Staff. Although not required to respond, the Joint Staff concurred with
    the audit report provided the following comment was incorporated into the
    report.
                We agree there are some functional areas that may benefit from
                Office of the Secretary of Defense oversight and closer programmatic
                cooperation among the Services. However, in developing a DoD
                weather architecture that integrates the DoD weather program, it is
                important to consider and protect Service-specific needs consistent
                with the Services’ responsibilities under Title 10, United States Code.

    In addition, the Joint Staff stated that their role was accurately identified when
    conducting meteorological and oceanographic operations.

    18
     Mandated by Presidential Decision Directive, National Science and Technology Council – 2,
    May 5, 1994.



                                             14
Recommendations, Management Comments, and Audit
  Response
    Revised, Renumbered, Deleted, and Added Recommendations. As a result
    of management comments, we revised draft Recommendation 1.a. to clarify the
    intent of our recommendation for ASD(C3I) to provide oversight for the
    development of an integrated DoD weather architecture. We also revised and
    renumbered Recommendation 1.d.1., now Recommendation 1.d., to clarify the
    intent of our recommendation for ASD(C3I) to develop specific policy and
    guidance that assigns roles and responsibilities for meteorological,
    oceanographic, and space weather programs. We deleted
    Recommendation 1.d.2. to acknowledge that existing DoD guidance addresses
    the requirements coordination process. We added Recommendation 3 to the
    Army Deputy Chief of Staff for Intelligence and Air Force Deputy Chief of
    Staff for Air and Space Operations to update existing Service guidance to
    require the coordination of meteorological, oceanographic, and space weather
    requirements across all Military Departments. We also added
    Recommendation 4 to the Oceanographer of the Navy to update existing Service
    guidance to require the coordination of meteorological, oceanographic, and
    space weather requirements across all Military Departments.

    1. We recommend the Assistant Secretary of Defense for Command,
    Control, Communications, and Intelligence:

           a. Oversee the development of a DoD weather architecture using the
    DoD Command, Control, Communications, Computers, Intelligence,
    Surveillance and Reconnaissance Architecture Framework methodology.

    ASD(C3I) Comments. ASD(C3I) nonconcurred, stating that it is not responsible
    for developing functional requirements that are used to develop operational-level
    architectures. ASD(C3I) stated they are responsible for developing
    enterprise-level architectures and providing policy, procedures, and oversight
    for information technology architectures. In addition, ASD(C3I) stated that they
    were responsible for validating and conducting cross-architecture analysis
    among and between Service and agency weather architectures to ensure
    interoperability of DoD information technology systems. ASD(C3I) also stated
    that, because the meteorological, oceanographic, and space weather function has
    not been designated as a joint mission area, it is unclear as to whether a
    DoD-level architecture is necessary. Weather is actually embedded in all or
    most of the joint mission areas.

    Audit Response. We consider ASD(C3I) comments partially responsive to the
    intent of the recommendation. Although ASD(C3I) stated that the Services are
    responsible for developing functional-level architectures, the Clinger-Cohen Act
    of 1996, Public Law 104-106, section 5125 (40 U.S.C. 1413) states that the
    Chief Information Officer is responsible for developing, maintaining, and
    facilitating the implementation of sound and integrated information technology
    architectures. In addition, a March 31, 2000, memorandum from the Deputy
    Secretary of Defense, “DoD Chief Information Officer Executive Board,”
    established the DoD Chief Information Officer Executive Board to advise the
    DoD Chief Information Officer on matters relating to the implementation of the


                                       15
Clinger-Cohen Act of 1996. The DoD Chief Information Officer Executive
Board is responsible for ensuring the collaborative development of information
technology architectures as specified in the Clinger-Cohen Act of 1996 and for
ensuring that processes are in place to enforce the architecture’s standardized
use, management, and control. We realize ASD(C3I) is ultimately responsible
for information technology architectures; however, providing oversight for the
development of a weather architecture using the existing joint Service-level
weather architecture will ensure an integrated DoD weather architecture is
developed and implemented. The fact that meteorological, oceanographic, and
space weather is not a joint mission area does not mean an architecture for the
weather functional area is unnecessary. Architectures are most necessary when
related systems are built by diverse communities. The intent of the original
recommendation was for ASD(C3I) to ensure an overall DoD weather
architecture was developed using the DoD Command, Control,
Communications, Computers, Intelligence, Surveillance and Reconnaissance
Architecture Framework methodology; therefore, we revised
Recommendation 1.a. to clarify our intent. We request that ASD(C3I) provide
additional comments on Recommendation 1.a. in response to the final report.

       b. Propose changes to DoD Directive 5137.1, “Assistant Secretary of
Defense for Command, Control, Communications, and Intelligence,”
February 12, 1992, to include meteorology and oceanography as part of the
Assistant Secretary of Defense for Command, Control, Communications,
and Intelligence responsibilities.

ASD(C3I) Comments. ASD(C3I) concurred, stating that proposed changes to
DoD Directive 5137.1 would be made to reflect the added responsibility of
serving as the proponent and advocate for the DoD weather program to include
meteorology, oceanography, and space weather.

      c. Serve as the DoD proponent and advocate for integrating the DoD
weather program to include meteorology, oceanography, and space
weather.

ASD(C3I) Comments. ASD(C3I) concurred, stating that they accept
responsibility for becoming the proponent and advocate for the DoD weather
program to include meteorology, oceanography, and space weather.

        d. Develop specific policy and guidance that assigns roles and
responsibilities for meteorological, oceanographic, and space weather
programs within DoD to meet interoperability requirements effectively and
efficiently.

ASD(C3I) Comments. ASD(C3I) nonconcurred, stating that DoD
Directive 4630.5, “Compatibility, Interoperability, and Integration of
Command, Control, Communications, and Intelligence Systems,”
November 12, 1992, and DoD Instruction 4630.8, “Procedures for
Compatibility, Interoperability, and Integration of Command, Control,
Communications, and Intelligence Systems,” November 18, 1992, provide
general policy and guidance that addresses integration and interoperability of
DoD information technology. In addition, ASD(C3I) stated that it is not



                                    16
necessary to develop specific policy and guidance to address meteorological,
oceanographic, and space weather requirements related to information
technology.

Audit Response. We consider ASD(C3I) comments partially responsive to the
intent of Recommendation 1.d.1. ASD(C3I) identified general guidance that
pertains to the integration and interoperability of information technology
systems; however, that guidance does not provide specific roles and
responsibilities for meteorological, oceanographic, and space weather systems.
Specific meteorological, oceanographic, and space weather guidance is
necessary to attain interoperability between the Military Departments. The need
for specific meteorological, oceanographic, and space weather guidance is
supported by post-Operation Desert Storm studies that identified interoperability
and communication shortfalls within DoD. We realize guidance addressing
roles and responsibilities for space weather exist; however, there continues to be
a need for overall guidance that assigns roles and responsibilities for overall
DoD weather program. The intent of the original recommendation was to
promote the integration and interoperability of meteorological, oceanographic,
and space weather information systems between the Military Departments by
assigning specific roles and responsibilities for the DoD weather program;
therefore, we revised Recommendation 1.d.1., now Recommendation 1.d., to
clarify our intent. We request that ASD(C3I) provide comments on
Recommendation 1.d. in response to the final report.

2. We recommend the Oceanographer of the Navy and Air Force Director
of Weather:

       a. Evaluate the Navy requirement to obtain sea ice and snow data
through cloud-covered areas and in adverse weather conditions and develop
alternative solutions to meet the requirement.

Navy Comments. The Office of the Assistant Secretary of the Navy
(Installation and Environment), in coordination with the Oceanographer of the
Navy, concurred, stating that there is a need to continually evaluate the
requirement for high-resolution, all-weather sea ice and snow data. The Navy
stated they will work with the Air Force, the National Polar-Orbiting
Operational Environmental Satellite System Program Office, and other agencies
to develop solutions that meet their requirements.

Air Force Comments. The Deputy Chief of Staff (Air and Space Operations),
in coordination with the Air Force Director of Weather, concurred, stating that
because of multi-level involvement in requirements such as the Navy
requirement for sea ice and snow data in cloud-covered areas and in adverse
weather conditions, the Navy should update its sea ice and snow data
requirements to ensure they are evaluated and included in the National
Polar-Orbiting Operational Environmental Satellite System integrated
operational requirements document. The Air Force stated that once the
requirements are evaluated, they will either be placed in the active portion of the
integrated operational requirements document or retained in the pre-planned
product improvement section of the integrated operational requirements
document depending on funding, priority, and technological capability.



                                    17
          b. Validate and fund the need for the special sensor microwave
imager to be a primary sensor on current and future weather satellites.

Navy Comments. The Office of the Assistant Secretary of the Navy
(Installation and Environment), in coordination with the Oceanographer of the
Navy, nonconcurred, stating that modifying current requirements to make the
special sensor microwave imager a primary sensor could cause out-of-sequence
launches that ultimately lead to gaps in meteorological, oceanographic satellite
coverage. The Navy also stated that the National Polar-Orbiting Operational
Environmental Satellite System Program Office is adequately addressing this
requirement by designating the conical microwave imager sounder as a key
performance parameter on future satellites, thereby making it a primary sensor.

Air Force Comments. The Deputy Chief of Staff (Air and Space Operations),
in coordination with the Air Force Director of Weather, nonconcurred, stating
that the Air Force is not responsible for validating and funding Navy
requirements for space-based weather sensing systems. The Air Force stated
that the special sensor microwave imager is unique to DMSP. The Air Force
also stated that the Navy requirement is not for the special sensor microwave
imager to be a primary sensor, but rather for the required measure of
performance it provides. The Air Force stated that making the presumption that
the special sensor microwave imager is the only solution capable of meeting the
Navy’s requirement could put the primary mission of DMSP at risk.

Audit Response. Although the Navy and Air Force nonconcurred, their
comments are responsive to the intent of the recommendation. The Air Force
recognizes the importance of the special sensor microwave imager for the
Navy’s global weather prediction models; however, launching one of the
remaining DMSP satellites because of a special sensor microwave imager failure
could put the mission of DMSP at risk. The Air Force stated that National
Oceanic and Atmospheric Administration Polar-Orbiting Operational
Environmental Satellites are expected to bridge the gap between DMSP satellites
and the launch of National Polar-Orbiting Operational Environmental Satellite
Systems satellites. The Navy stated that the data produced by the special sensor
microwave imager is being adequately addressed in the Presidentially directed
National Polar-Orbiting Operational Environmental Satellite System program.
In addition, the National Polar-Orbiting Operational Environmental Satellite
System cost and operational benefits requirements analysis states that the sea ice
and wind threshold requirements for the Navy will be met on the National
Polar-Orbiting Operational Environmental Satellite System with the conical
microwave imager sounder. Officials from the National Polar-Orbiting
Operational Environmental Satellite System Program Office stated that the
conical microwave imager sounder will meet sea ice, snow, and other
requirements identified by the Services. In addition, the conical microwave
imager sounder received its “fixed position” on the National Polar-Orbiting
Operational Environmental Satellite System satellites.




                                    18
        c. Evaluate Air Force high-speed, two-way weather
communication systems to ensure interoperability with Navy operations
afloat.

Navy Comments. The Office of the Assistant Secretary of the Navy
(Installation and Environment), in coordination with the Oceanographer of the
Navy, concurred, stating that although a need for interoperability between the
Navy and Air Force exists, the Oceanographer of the Navy will continue to
pursue communication capabilities through the Defense Information Systems
Agency and established DoD procedures because these processes are designed to
ensure interoperability.

Air Force Comments. The Deputy Chief of Staff (Air and Space Operations),
in coordination with the Air Force Director of Weather, concurred, stating that
the Air Force would assist the Navy if the Navy integrates tracking systems for
VSAT on its ships. The Air Force also stated that the Navy should procure the
necessary hardware and software for fixed locations and operations at sea or for
any other Service-unique operational requirement if it chooses to use VSAT.
However, the Air Force stated that there is no need for the Navy to use VSAT
because of available existing communication methods that ensure the Navy is
capable of receiving Air Force weather data during operations afloat.

3. We recommend the Army Deputy Chief of Staff for Intelligence and the
Air Force Deputy Chief of Staff for Air and Space Operations update Air
Force Joint Instruction 15-157, “Weather Support for the U.S. Army,”
July 31, 1996, to require that the Army and Air Force coordinate
meteorological, oceanographic, and space weather requirements across all
Military Departments to promote interoperability and avoid duplication of
weather services and support.

4. We recommend the Oceanographer of the Navy update Secretary of the
Navy Instruction 5430.79B, “Naval Oceanography Policy, Relationships,
and Responsibilities,” July 14, 1986, and Chief of Naval Operations
Instruction 5450.165D, “Mission and Function of Commander, Naval
Meteorology and Oceanography Command,” August 8, 1995, to require
that the Navy coordinate meteorological, oceanographic, and space weather
requirements across all Military Departments to promote interoperability
and avoid duplication of weather services.




                                   19
Appendix A. Audit Process

Scope
    This report is one in a series that evaluates the effectiveness of DoD
    meteorological and oceanographic services and support provided by the Military
    Departments to themselves and other governmental agencies.

    We reviewed and evaluated whether DoD, Joint Staff, and Military Department
    directives, instructions, policies, regulations, and memorandums implemented
    from July 1947 to March 2000 were adequate for coordinating satellite and
    communication requirements for meteorological, oceanographic, and space
    weather services and support across the Military Departments. We reviewed the
    DoD Command, Control, Communications, Computers, Intelligence,
    Surveillance and Reconnaissance Architecture Framework, the
    Kosovo/Operation Allied Force After-Action Report, and the Navy-Air Force
    agreement. We reviewed the processes used by the Military Departments for
    identifying needs and generating requirements based on the identified mission
    needs. In addition, we reviewed interagency and inter-Service agreements to
    determine whether meteorological and oceanographic services and support were
    duplicative.

    DoD-wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to the achievement of the following goal and subordinate performance goals:

           FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (00-DoD-2)
           FY 2000 Subordinate Performance Goal 2.2: Transform U.S. military
           forces for the future. (00-DoD-2.2)
           FY 2000 Subordinate Performance Measure 2.2.3: Joint
           Experiments. (00-DoD-2.2.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology and Infrastructure high-risk
    areas.




                                       20
Methodology
    We identified and analyzed policies and guidance used by the Military
    Departments to identify, document, and validate requirements for
    communication and satellite systems used to support meteorological and
    oceanographic services and support by:

           •   conducting interviews with officials from the Offices of the
               ASD(C3I); the Director, Defense Research and Engineering; the Joint
               Staff; and the Army Deputy Chief of Staff for Intelligence. We also
               visited the White Sands Missile Range, the Naval Meteorological and
               Oceanographic Command, the Fleet Numerical Meteorology and
               Oceanography Center, the Naval Oceanographic Office, the Naval
               Ice Center, the Air Force Weather Agency, the Air Force Space
               Command, the Air Force Space and Missile Center, and the Combat
               Air Force Command and Control System Program Office.

           •   evaluating the process used by the Military Departments to identify,
               develop, document, and coordinate meteorological, oceanographic,
               and space weather communication and satellite requirements within
               the Military Departments.

           •   researching management and oversight responsibilities for
               meteorological, oceanographic, and space weather within DoD.

           •   reviewing whether the Military Departments revalidated
               meteorological, oceanographic, and space weather requirements.

           •   examining the methods used by management to monitor and
               determine the adequacy of DoD meteorological, oceanographic, and
               space weather services and support.

    Audit Type, Dates, and Standards. We performed this program audit from
    February through July 2000 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls
    considered necessary. We did not use computer-processed data to perform this
    audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.




                                       21
Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance programs are operating
    as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls at the Office of the Secretary of Defense with
    respect to coordinating meteorological, oceanographic, and space weather
    satellite and communication requirements. Specifically, we reviewed the
    accuracy and reliability of the process to identify, coordinate, validate, and
    revalidate satellite and communication requirements that support DoD
    meteorological, oceanographic, and space weather services and support. In
    addition, we reviewed management’s self-evaluation applicable to
    meteorological, oceanographic, and space weather services and support.

    Adequacy of Management Controls. We identified material management
    control weaknesses within DoD. DoD did not establish a cognizant organization
    that was responsible for management and oversight of meteorological,
    oceanographic, and space weather requirements to include the development of a
    DoD weather architecture. Without a responsible cognizant DoD organization
    and DoD weather architecture to ensure deficiencies impacting mission
    accomplishment are eliminated, DoD may not adequately accomplish its mission
    of providing meteorological, oceanographic, and space weather services and
    support to the warfighter. Recommendation 1.a. and Recommendation 1.c., if
    implemented, will ensure the process to develop communication and satellite
    requirements that support meteorological, oceanographic, and space weather
    services is met. A copy of this report will be sent to the senior official in
    charge of management controls in the Office of the Secretary of Defense.

    Although ASD(C3I), in commenting on the draft report, disagreed that the
    condition of not having a cognizant DoD organization needed to be reported as a
    material control weakness, ASD(C3I) concurred and will implement the
    recommendation to correct the condition and become the proponent for the DoD
    weather program. However, we continue to believe that the lack of a DoD
    weather architecture is material. The Joint Interoperability Meteorological and
    Oceanographic Interoperability Team, formed as a result of Operation Desert
    Storm, identified meteorological, oceanographic, and space weather
    interoperability and communication problems in the May 1995 study. In
    addition, the 1993 Navy-Air Force agreement, also established as a result of
    interoperability issues identified during Operation Desert Storm, identified
    16 interoperability initiatives, of which 11 accepted initiatives remain
    unresolved as of November 2000. DoD Instruction 5010.40, “Management
    Control Program Procedures,” August 28, 1996, defines control weaknesses as
    material when the weakness impairs fulfillment of essential missions or
    operations. We request management to comment on whether this weakness will
    be reported in the annual assurance letter for FY 2001, if it remains
    uncorrected.


                                      22
    Adequacy of Management’s Self Evaluation. DoD did not identify
    meteorology, oceanography, and space weather services and support as an
    assessable unit, related to program oversight and requirements coordination
    within DoD. This occurred because DoD did not designate a cognizant
    organization for the execution of DoD meteorological and oceanographic
    programs. Therefore, DoD did not identify or report the material management
    control weakness identified by the audit.



Prior Coverage
    No prior coverage has been conducted on meteorological and oceanographic
    support services during the last 5 years.




                                     23
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Research and Engineering
Under Secretary of Defense (Policy)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Administration and Management
Under Secretary of Defense (Personnel and Readiness)
Assistant Secretary of Defense for Command, Control, Communications, and
  Intelligence

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
  Deputy Chief of Staff for Intelligence

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Oceanographer of the Navy
  Commander, Naval Meteorology and Oceanography Command
  Commander, Fleet Numerical Meteorology and Oceanography Center
  Commander, Naval Oceanographic Office
  Commander, Naval Ice Center

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director of Weather
  Commander, Air Force Weather Agency
  Commander, Air Force Space Command
  Commander, Space and Missile Center
  Commander, Combat Air Force Command and Control System Program Office




                                           24
Other Defense Organizations
Director, Defense Information Systems Agency
Inspector General, National Imagery and Mapping Agency
Inspector General, National Reconnaissance Office
Comptroller, Defense Advanced Research Project Agency

Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       25
Assistant Secretary of Defense (Command,
Control, Communications, and
Intelligence Comments)




                      27
28
     Final Report
      Reference




     Pages 15-16




     Revised




29
Final Report
 Reference




Page 16




Revised and
renumbered
as Recom-
mendation
1.d.




Deleted




               30
     Final Report
      Reference




     Page 22




31
Final Report
 Reference




Revised




Revised,
Pages 1-2




Revised




               32
     Final Report
      Reference




     Revised




     Revised




     Revised




     Revised




33
Final Report
 Reference




Revised




Revised




Revised




Revised




               34
     Final Report
      Reference




     Revised




     Revised,
     Page 6
     Page 7




     Revised,
     Page 7




35
Final Report
 Reference




Revised,
Page 8




Revised,
Page 8




Revised,
Page 8




Page 8




               36
     Final Report
      Reference




     Revised,
     Page 8




     Pages 8-9




     Revised,
     Pages 9-10

     Revised,
     Page 9




     Revised,
     Page 10




37
Final Report
 Reference




Page 10




Page 11




Pages 10-11




Revised,
Page 11




Revised,
Page 11




               38
     Final Report
      Reference




     Page 11




     Revised,
     Page 11




     Revised,
     Page 12




     Revised,
     Page 12



     Pages 11-12




     Revised,
     Page 12




39
Final Report
 Reference




Page 12




Page 13




Revised,
Page 13




Pages 13-14




Revised,
Page 14




Revised,
Page 14

Revised,
Page 14




               40
41
Department of the Army Comments




                    42
     Final Report
      Reference




     Revised




43
Final Report
 Reference




Revised and
renumbered
as Recom-
mendation
1.d.



Deleted




               44
45
Final Report
 Reference




Revised




Revised




Revised,
Pages 1-2




Revised




Revised




               46
     Final Report
      Reference




     Revised




     Revised,
     Page 12




     Revised,
     Page 13




47
Department of the Navy Comments




                     48
49
50
     Pages 15-19




51
52
     Final Report
      Reference




     Page 11



     Revised




     Page 11




     Pages 11-12

     Revised




53
Pages 12-13




Page 22




              54
Department of the Air Force Comments




                     55
56
     Final Report
      Reference




     Revised




57
Final Report
 Reference




Revised and
renumbered
as Recom-
mendation
1.d.




               58
     Final Report
      Reference




     Deleted




59
60
61
62
63
64
     Final Report
      Reference




     Revised




65
Final Report
 Reference




Revised




Revised

Revised

Revised




               66
     Final Report
      Reference




     Revised




     Revised




     Deleted




     Revised,
     Page 6



     Revised,
     Page 8




67
Final Report
 Reference




Page 8




Page 8




Page 8




Revised,
Page 8




               68
     Final Report
      Reference




     Revised,
     Page 10

     Page 10




     Pages 11-12




     Revised,
     Page 11



     Revised,
     Page 11




69
70
     Final Report
      Reference




     Page 12




71
72
     Final Report
      Reference




     Page 13




     Deleted




     Page 14
     Revised




73
Final Report
 Reference




Revised,
Page 14
Revised,
Page 14




               74
Joint Staff Comments




                       75
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report are listed
below.

   Shelton R. Young
   Raymond D. Kidd
   Evelyn R. Klemstine
   Gary R. Padgett
   Raymond L. Hopkins
   Arthur J. Maurer
   Michael J. Barnes
   Sean J. Keaney
   Mary R. Hoover
   Woodrow W. Mack
   Nadine F. Ramjohn
